i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(April 1, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court for the
District of Delaware
(August 29, 2017) . . . . . . . . . . . . App. 21
Appendix C Judgment in the United States
District Court for the District of
Delaware
(December 8, 2016) . . . . . . . . . . . App. 40
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Third Circuit
(April 30, 2019) . . . . . . . . . . . . . . App. 42

App. 1

APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT
No. 17-3141
[Filed April 1, 2019]
_____________________________
TAMRA N. ROBINSON
)
)
v.
)
)
FIRST STATE COMMUNITY )
ACTION AGENCY,
)
)
Appellant
)
)
____________________________ )
On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-14-cv-01205)
District Judge: Hon. Richard G. Andrews
Submitted Under Third Circuit L.A.R. 34.1(a)
October 23, 2018
Before: KRAUSE, COWEN, FUENTES,
Circuit Judges.
(Filed April 1, 2019)

App. 2
Tasha M. Stevens
Fuqua Willard Stevens & Schab
26 The Circle
P.O. Box 250
Georgetown, DE 19947
Counsel for Appellant
Kevin G. Fasic
Katherine R. Witherspoon
Offit Kurman
1201 North Orange Street
Suite 10 East
Wilmington, DE 19801
Counsel for Appellee
OPINION OF THE COURT
FUENTES, Circuit Judge.
Tamra Robinson was told by her manager Karen
Garrett that her work performance was so poor that
“you either don’t know what you’re doing, or you have
a disability, or [you’re] dyslexic.” Taking Garrett’s
words seriously, Robinson, who had never before
considered the possibility she might have a disability,
decided to undergo testing for dyslexia. She sent
Garrett an evaluation that concluded that Robinson
had symptoms consistent with dyslexia, and requested
certain accommodations from the manager of human
resources. She was told that any diagnosis she received
would not prevent her from performing her work in a
satisfactory matter, and she was advised to focus on
improving her performance. Weeks later, she was fired.

App. 3
During the litigation in the District Court between
Robinson and her former employer, First State
Community Action Agency, Robinson acknowledged
that she could not prove she was dyslexic. She
proceeded on a different theory, that she was perceived
or regarded as dyslexic by her employer and was
therefore entitled to a reasonable accommodation the
same way someone who was dyslexic would have been.
While we have previously recognized the validity of a
“regarded as” disability case theory in cases arising
under the Americans with Disabilities Act,1 the ADA
Amendments Act of 20082 made clear that a “regarded
as” plaintiff is not statutorily entitled to
accommodation.3 Despite this, both parties proceeded
under the “regarded as” case theory throughout
litigation, trial, and post-trial briefing. Only now does
First State seek to unring the bell and overturn the
jury’s verdict because the jury was instructed that the
“regarded as” case theory was valid. We hold that First
State has waived this argument because of its
continued acquiescence to Robinson’s case theory, its
encouragement of the adoption of the very jury
instruction to which it now objects, and its failure to
include this error in its post-trial briefing. We therefore
affirm the judgment of the District Court.

1

Williams v. Phila. Hous. Auth. Police Dep’t, 380 F.3d 751, 775 (3d
Cir. 2004).
2

Pub. L. No. 110-325, § 6, 122 Stat. 3553, 3558 (2008).

3

42 U.S.C. § 12201(h).

App. 4
I. Background
A. Robinson’s Employment at First State
In October 2009, Tamra Robinson was hired by
First State Community Action Agency (“First State”) as
an individual development account counselor.4 Almost
two years later, First State hired Karen Garrett, and
Garrett became Robinson’s supervisor.
Garett was
dissatisfied with Robinson’s work, and in November
2011, Garrett told Robinson “you either don’t know
what you’re doing, or you have a disability, or [you’re]
dyslexic.”5
Robinson had never before considered whether she
had any kind of disability. She attempted to find a
physician to conduct an evaluation for dyslexia, and
ultimately reached out to a family friend, Dr. Phyllis
Parker, who was a psychologist. After undergoing
testing in January 2012, Robinson received an
evaluation from Dr. Parker noting that she
demonstrated “signs of dyslexia,” but this evaluation
did not diagnose her with the disorder.6 She
immediately forwarded it to Garrett.
While Robinson was undergoing this process,
Garrett completed a performance appraisal for
Robinson. On January 12, 2012, she placed Robinson
on an individual development plan addressing six areas
of concern. The plan provided for biweekly reviews of
4

About a year later, she was transitioned into the position of
housing default counselor.
5

J.A. 65.

6

J.A. 75.

App. 5
Robinson’s progress followed by a final evaluation in
March of that year. Garrett received Dr. Parker’s
evaluation just six days after completing the
development plan. She forwarded it to First State’s
Human Resources Director, David Bull. Bull emailed
Robinson, informing her that he received a copy of her
“Informal Dyslexia Screening.”7 Nevertheless, he told
Robinson that he did not believe the diagnostic
information contained in the evaluation would
“impact[] [Robinson’s] ability to perform the essential
elements of [her] job responsibilities” and instructed
her to follow the individual development plan.8 The
next day, Robinson
wrote back and asked for
“reasonable accommodations”—specifically, she asked
for “hands-on organized training for the types of
clients” she would be responsible for counseling.9 Bull
replied by saying, “I fully understand and know ADA.
What you need to do is your job.”10 A few weeks later,
Robinson was fired.
B. Proceedings Below
In 2014, Robinson filed the instant suit against
First State alleging violations of the Americans with
Disabilities Act. Since at least the summary judgment
stage, she argued that First State wrongfully
terminated her and wrongfully denied her reasonable
accommodations, both because she actually possessed
a disability (dyslexia) and because First State regarded
7

J.A. 253.

8

Id.

9

J.A. 250.

10

J.A. 252.

App. 6
her as dyslexic.11 The dispute between Robinson and
First State proceeded to trial, and Robinson prevailed
on her reasonable accommodation claim but not her
termination claim. First State then moved for a new
trial, and cited two alleged errors during the course of
the trial.
First, during Robinson’s direct examination, she
testified that after being terminated, she filed a
complaint with the Equal Employment Opportunity
Commission, which, she further testified, ruled in her
favor. At sidebar, counsel for First State objected and
requested a mistrial. The District Court instead struck
the response, informing the jury:
Members of the jury, [you] may recall at the
beginning of the trial, that I might have to strike
some testimony, and tell you to disregard what
you heard.
That last question and answer, I am striking
that testimony, and you have to disregard what
you heard. You cannot rely on it for anything.
You need to put it out of your mind.12
11

See Opening Brief in Support of Robinson’s Motion for Summary
Judgment (“Robinson SJ Br.”) (Doc. 48) at 8, Robinson v. First
State Cmty. Action Agency, 14 Civ. 1205 (RGA) (D. Del. 2014).
12

J.A. 132. Later, the District Court further explained the ruling
outside the presence of the jury, noting that it did not find an
intentional violation of the rule against the improper introduction
of evidence. The District Court also referenced a Seventh Circuit
case, Wilson v. Groaning, 25 F.3d 581 (7th Cir. 1994), which
concluded that the improper admission of testimony was
sufficiently cured by the trial court’s prompt decision to strike the
testimony and instruct the jury to disregard it.

App. 7
In its post-trial decision, the District Court
maintained that striking the testimony was a sufficient
response to the inadmissible evidence because juries
are presumed to follow a court’s instructions, and the
split verdict showed that they were not unduly swayed
by the testimony.
Second, the District Court mentioned the statutory
damage cap for Robinson’s claims in its jury
instructions.13 After trial, the District Court agreed
that the instruction was error, but determined that
because First State did not object at trial and the error
was harmless, it did not merit a new trial.
First State now appeals that decision, arguing that
it merits a new trial both because of the stricken
testimony about the Commission’s finding and because
of the erroneous damages cap instruction. First State
also argues, for the first time, that the judgment below
should be vacated because Robinson’s “regarded as”
disabled case theory was precluded by the ADA
Amendments Act of 2008.14
13

The Court informed the jury that “[t]he total amount of
compensatory and punitive damages combined you can award in
this case is $50,000.” J.A. 389.
14

First State styles this objection as one regarding the District
Court’s jury instructions. The District Court instructed the jury on
Robinson’s reasonable accommodation claim as follows: “You can
find that First State breached its duty to provide reasonable
accommodations because it failed to engage in an interactive
process if Ms. Robinson proves four things: First, First State
regarded Ms. Robinson as dyslexic. Second, Ms. Robinson
requested accommodation or assistance. Third, First State did not
make a good faith effort to assist Ms. Robinson in seeking
accommodations; and fourth, Ms. Robinson could have reasonably

App. 8
II. Discussion
A. The 2008 Amendments
In 2008, the Americans with Disabilities Act was
amended. The Act now provides that employers “need
not provide a reasonable accommodation . . . to an
individual who meets the definition of disability in
[Section 12102(1)(C)].”15 That Section, in turn, includes
the definition of individuals who are “regarded as
having” a physical or mental impairment.16 In other
words, after the 2008 Amendments went into effect, an
individual who demonstrates that she is “regarded as”
disabled, but who fails to demonstrate that she is
actually disabled, is not entitled to a reasonable
accommodation. 17 Therefore, the reasonable
accommodation jury instruction, which informed the
members of the jury that they needed to find only that
First State “regarded Ms. Robinson as dyslexic,”18 was
error.
The question before us is whether to review this
error under the strict plain error standard or whether
been accommodated but for First State’s lack of good faith.” J.A.
384.
15

42 U.S.C. § 12201(h).

16

42 U.S.C. § 12102(1)(C).

17

See Powers v. USF Holland, Inc., 667 F.3d 815, 823 n.7 (7th Cir.
2011) (“[T]he ADAAA clarified that an individual ‘regarded as’
disabled (as opposed to actually disabled) is not entitled to a
‘reasonable accommodation.’”). We have also made this point in
prior decisions. See, e.g., Hohider v. United Parcel Serv., Inc., 574
F.3d 169, 188 n.17 (3d Cir. 2009).
18

J.A. 384.

App. 9
to treat the objection as waived. Despite the fact that
Robinson discussed her position that she need only
prove she was regarded as dyslexic as early as 2016,
when she filed her motion for summary judgment, First
State never addressed the effect of the 2008
Amendments until its briefing before this Court. It
contends that its failure to raise this argument is best
understood as a failure to object to an erroneous jury
instruction and should therefore be reviewed under our
plain error standard. We disagree because, although
First State focuses narrowly on how this error
manifested in the jury instructions, it was more
broadly a flaw in Robinson’s theory of the case that
dated back to summary judgment briefing, and First
State at no time objected to that theory despite
numerous opportunities to do so. Thus, we view the
argument as waived, and we decline to consider it for
the first time on appeal.
1. Forfeiture and Waiver
“The effect of failing to preserve an argument will
depend upon whether the argument has been forfeited
or waived.”19 Forfeiture is the “failure to make the
timely assertion of a right.”20 Waiver is the “intentional
relinquishment or abandonment of a known right.”21
Waived arguments about jury instructions may not be

19

Barna v. Bd. of Sch. Dirs. of Panther Valley Sch. Dist., 877 F.3d
136, 146 (3d Cir. 2017).
20

Id. at 147 (quoting United States v. Olano, 507 U.S. 725, 733
(1993)).
21

Id. (citation omitted).

App. 10
resurrected on appeal.22 When the argument was
merely forfeited, however, plain error analysis
applies,23 and we will reverse only where the error is
“fundamental and highly prejudicial, such that the
instructions failed to provide the jury with adequate
guidance and our refusal to consider the issue would
result in a miscarriage of justice.”24
We find that First State’s actions below are more
appropriately classified as waiver. Throughout the
history of this litigation, including in its early stages,
First State was routinely confronted with Robinson’s
“regarded as” case theory. Not only did First State fail
to object, it specifically assented to the jury instruction
it now points to as erroneous.
In 2016, First State moved for summary judgment,
arguing, among other things, that Robinson could not
establish that she was disabled under the terms of the
Americans with Disabilities Act.25 In response, and in
her motion for summary judgment, Robinson argued
that she only needed to establish that First State

22

Id. at 146 n.7.

23

See Harvey v. Plains Twp. Police Dep’t, 635 F.3d 606, 609 (3d
Cir. 2011); see also Fed. R. Civ. P. 51(d).
24

Franklin Prescriptions, Inc. v. N.Y. Times Co., 424 F.3d 336, 339
(3d Cir. 2005) (quoting Ryder v. Westinghouse Elec. Corp., 128
F.3d 128, 136 (3d Cir. 1997)).
25

See Opening Brief in Support of First State’s Motion for
Summary Judgment (Doc. 45), Robinson v. First State Cmty.
Action Agency, 14 Civ. 1205 (RGA) (D. Del. 2014).

App. 11
“regarded her” as disabled.26 Instead of correcting
Robinson’s error of law, First State argued that there
was no evidence First State treated Robinson as though
she had a “substantially limiting impairment.”27 The
Magistrate Judge disagreed, and found that summary
judgment was inappropriate because there was a
question of material fact regarding whether First State
considered Robinson disabled.28 First State filed no
objections to the Report and Recommendation, failing
again to argue that a plaintiff could no longer proceed
under a “regarded as” disability theory for reasonable
accommodation claims.29
Those failures, alone, would not be enough to waive
the issue on appeal, but the viability of the “regarded
as” case theory was squarely before First State again at
trial. At a conference outside the jury’s presence in
December 2017, plaintiff’s counsel suggested that the
relevant jury instruction include the four-part test from
Williams v. Philadelphia Housing Authority Police
Department on a failure to reasonably accommodate a

26

Robinson SJ Br. at 8; Brief in Opposition to First State’s Motion
for Summary Judgment (Doc. 50) at 9–11, Robinson v. First State
Cmty. Action Agency, 14 Civ. 1205 (RGA) (D. Del. 2014).
27

See Brief in Opposition to Robinson’s Motion for Summary
Judgment (Doc. 51) at 8, Robinson v. First State Cmty. Action
Agency, 14 Civ. 1205 (RGA) (D. Del. 2014).
28

See Report and Recommendation dated October 24, 2016 (Doc.
56) at 8–10, Robinson v. First State Cmty. Action Agency, 14 Civ.
1205 (RGA) (D. Del. 2014).
29

See Order dated November 17, 2016 (Doc. 57), Robinson v. First
State Cmty. Action Agency, 14 Civ. 1205 (RGA) (D. Del. 2014).

App. 12
plaintiff who was “regarded as” disabled.30 Defense
counsel initially provided no views about the jury
charge. That evening, plaintiff’s counsel sent an email
clearly stating that “as we represented today, we are
not arguing that Ms. Robinson has a disability.”31 The
email also provided more concrete suggestions to
include the Williams test in the instructions. At the
charge conference the next day, defense counsel voiced
her support for Robinson’s proposed jury instruction,
specifically saying that while she had not seen the new
proposed language, she agreed that “it would be
simpler if the accommodation claim is included” and
that “the language about the failure to engage in the
four-part test”—the language derived from Williams,
which held that a “regarded as” plaintiff could pursue
30

In Williams, we concluded that the Americans with Disabilities
Act as then codified entitled a plaintiff who was regarded as
disabled to reasonable accommodations. 380 F.3d 751, 775 (3d. Cir.
2004). We set forth the following four elements for establishing
that an employer breached its duty to provide reasonable
accommodations: “1) the employer knew about the employee’s
disability; 2) the employee requested accommodations or
assistance for his or her disability; 3) the employer did not make
a good faith effort to assist the employee in seeking
accommodations; and 4) the employee could have been reasonably
accommodated but for the employer’s lack of good faith.” Id. at 772
(citing Taylor v. Phoenixville Sch. Dist., 184 F.3d 296, 319–20 (3d
Cir. 1999)). The instructions given to the jury below modified those
in Williams to reflect the entitlement of a “regarded as” plaintiff to
a reasonable accommodation. Those instructions correctly
explained the law under our precedent in Williams, but the 2008
Amendments abrogated Williams on that point.
31

Email to the Court dated December 7, 2016 (Doc. 69), Robinson
v. First State Cmty. Action Agency, 14 Civ. 1205 (RGA) (D. Del.
2014).

App. 13
a reasonable accommodation claim—should be
included.32 After First State was found liable on
Robinson’s reasonable accommodation claim, it moved
for a new trial. But it did not raise the error in that
post-trial briefing, nor did it move for judgment as a
matter of law on those grounds.
This course of conduct evinces an intent to proceed
under Robinson’s “regarded as” case theory and waive
any objection based on the 2008 Amendments. Our
recent cases on waiver illustrate this point. In
Government of the Virgin Islands v. Rosa, we found
that a defendant’s “repeated acquiescence” to erroneous
instructions did not rise to the level of a knowing and
intentional waiver.33 But in United States v. Wasserson,
we concluded that an alleged error was waived when
the defendant failed to raise the objection at trial and
failed to include it in his post-trial briefing.34 And, we
have long held that when a party jointly recommends
a jury instruction, it cannot later complain about that

32

J.A. 211–12. Specifically, Stevens said, “Your Honor, I’m not
exactly sure of how [Robinson] want[s] to change the instruction as
proposed, but I think it would be simpler if the accommodation
claim is included. The language about the failure to engage in the
four-part test that is used instead of setting out two separate tests.
I do think it could be set out with the four-prong test that is
identified, I believe. I think we’re talking about the same one. I can
consult with counsel to make sure we’re talking about the same
one.”
33
34

399 F.3d 283, 292–93 (3d Cir. 2005).

418 F.3d 225, 239 (3d Cir. 2005). The defendant in that case also
failed to raise the issue in his opening brief, which constituted a
second ground to find waiver. Id. at 240.

App. 14
very instruction.35 Here, First State did not merely fail
to object to an instructional error at a charging
conference; it played along with a flawed theory of
liability throughout the litigation and ultimately
endorsed the specific instruction embodying that
theory. First State was initially made aware in
mid-2016 of the erroneous case theory and did nothing.
It did nothing again at the beginning of trial. And
finally, it invited the District Court to use the four-part
test from Williams it now argues is incorrect.
Unfortunately for First State, it is simply too little, too
late. We therefore find that First State has waived its
argument about the effect of the 2008 Amendments
and will not review the instruction for plain error.
2. The Effect
Instructions

of

the

Model

Jury

Although, for the reasons stated above, we conclude
that First State’s argument regarding the reasonable
accommodation jury instruction was waived, and thus
need not review the instruction for plain error, the
parties have devoted considerable attention in their
briefing to the significance of the “Model Civil Jury
Instructions for the District Courts of the Third
Circuit,”36 which erroneously includes a “regarded as”
35

See United States v. Ozcelik, 527 F.3d 88, 97 n.6 (3d Cir. 2008);
see also United States v. Teague, 443 F.3d 1310, 1317 (10th Cir.
2006) (“[W]hen a party ‘invites’ an error by suggesting that the
court take particular action, we can presume that the party has
acted voluntarily and with full knowledge of the material
consequences.”).
36

Model Instructions 9.1.3 and 9.2.1 have not been updated to
reflect the 2008 Amendments to the ADA. Instead, Instruction

App. 15
instruction, for a plain-error analysis. In so doing, they
expose a fundamental misunderstanding of the import
of those instructions and the standard under which
they are reviewed. Specifically, Robinson argues that
because the flawed instruction appears in what are
colloquially known as the “Third Circuit Model Jury
Instructions,” the District Court could not have
“plainly” erred in providing it to the jury. As Robinson’s
misunderstanding may be shared by others, we take
this opportunity to correct it.
Although entitled “Model Civil Jury Instructions for
the District Courts of the Third Circuit,” these
instructions are drafted not by members of this Court
but by the Committee on Model Civil Jury Instructions,
consisting of eight district court judges from districts
within the Third Circuit, who also collaborate with the
Committee’s reporters, two law professors. Although
the Committee’s work is partially funded by the Third
Circuit Court of Appeals, and made available on the
Court’s website, the website clarifies that “neither the
9.1.3, which provides the elements for a reasonable-accommodation
claim, states that a plaintiff must prove she “has a ‘disability’
within the meaning of the ADA,” and cross-references Instruction
9.2.1 for the definition of “disability.” Third Circuit Model Jury
Instructions for Employment Claims Under the Americans with
Disabilities Act at 17, available at https://www.ca3.uscourts.gov/sit
es/ca3/files/9_Chap_9_2018 _Oct.pdf. Instruction 9.2.1, in turn,
defines “disability” to include “not only those persons who actually
have a disability, but also those who are ‘regarded as’ having a
disability by their employer.” Id. at 48. The Comment to Model
Instruction 9.1.3 refers to Williams, and states that “an employee
‘regarded as’ having a disability is entitled to the same
accommodation that he would receive were he actually disabled.”
Id. at 28. The Comment to Model Instruction 9.2.1 uses the same
language. Id. at 56.

App. 16
[Third Circuit] Court of Appeals nor any Judge of that
Court participate[s] in the drafting of the Model
Instructions.”37 Given the care put into that drafting,
we have observed it is unlikely “that the use of [a]
model jury instruction can constitute error.”38 True
enough, as far as probabilities go, but we have never
held that use of such an instruction cannot constitute
error, and a model jury instruction itself is neither law
nor precedential. Judges and parties are not free to
incorporate incorrect legal principles simply because
there is a similar error in these or any model jury
instructions. Model instructions are designed to help
litigants and trial courts, not to replace their shared
obligation to distill the law correctly when drafting
proposed jury instructions. Thus, the existence of the
antiquated model jury instruction here, which
regrettably does not yet reflect the 2008 Amendments,
fails to provide a second justification for our decision to
not review the relevant jury instruction.

37

Introduction to the Model Civil Jury Instructions, available at
http://www.ca3.uscourts.gov/sites/ca3/files/INTRODUCTI
ON_2018_for_website.pdf.
38

United States v. Petersen, 622 F.3d 196, 208 (3d Cir. 2010).
Admittedly, our language has not always been as precise as it
could be, perhaps contributing to the confusion. For example, we
have referred to the model instructions on occasion as “our own.”
Id. As indicated, however, the model jury instructions do not bear
the imprimatur of this Court, and when parties use those
instructions, they are reviewed like any other instructions for their
correctness, both on plenary review and plain-error review.

App. 17
B. The Statutory Damages Cap
First State also argues that the inclusion of the
$50,000 statutory damages cap was error. Because
First State did not object during trial, we review for
plain error.39 We agree with the District Court that the
instruction was given in error but that such error was
harmless.
The pertinent statute, 42 U.S.C. § 1981a(c)(2),
provides that a court “shall not inform” the jury of
statutory damages limitations. The District Court’s
instruction did just that, and the instruction was error.
The question for us, then, is whether that error was so
fundamental and prejudicial that a failure to review it
would constitute a miscarriage of justice.40
First State points to a single Fourth Circuit opinion
that lends some credence to its argument that an
erroneous instruction on statutory damages might
constitute error, but falls far short of convincing us that
there was plain error in this case. In Sasaki v. Class,
an attorney mentioned the damages cap during closing
39

First State’s attorney did raise questions about whether or not
the damages cap should be included in the jury instructions. But
while First State points this out, it neglects to mention that its
attorney did not actually object to the charge, and instead said “I
don’t know. I just read it as a rule. I didn’t know if it was the rule
to be followed. . . . I’m comfortable with [the instruction].” J.A. 184.
When an attorney admits to uncertainty about the propriety of the
charge and fails to actually object, the requirements of Rule 51(c)
of the Federal Rules of Civil Procedure have not been met, and the
instruction is reviewed under the plain error standard. See Collins
v. Alco Parking Corp., 448 F.3d 652, 655–56 (3d Cir. 2006).
40

Collins, 448 F.3d at 656.

App. 18
argument.41 On review, the Fourth Circuit concluded
that “when a jury’s damages award itself indicates . . .
strongly that the error substantially influenced the
jury’s verdict, the error cannot be dismissed as
harmless.”42 But there are two key distinctions between
Sasaki and the instant matter. First, because the
defendant’s attorney objected at trial, the error was
preserved.43 Second, the court found evidence that the
jury had responded to the erroneous disclosure by
adjusting its award—namely, the jury awarded $50,000
(the highest amount within the damages cap) on the
plaintiff’s federal claims and $150,000 on her state law
claims, despite the fact that “[a]ll of the conduct that
formed the basis for [the] state claims also provided the
basis for [the] federal claims.”44 Here, however, First
State presents no evidence that learning of the
damages cap affected the jury’s decisionmaking.
Indeed, the jury awarded Robinson $22,501, which was
well below the statutory cap in any event.
While the inclusion of the statutory cap language
was error, we cannot see how there was any prejudice
to First State as a result, much less prejudice that, if
left uncorrected, would work a manifest injustice. We
therefore conclude that there was no plain error.

41

92 F.3d 232, 235 (4th Cir. 1996).

42

Id. at 237.

43

Id. at 235.

44

Id. at 237.

App. 19
C. Robinson’s Testimony about the
Commission
Finally, we review First State’s objection to
Robinson’s testimony about the outcome of her
complaint before the Equal Employment Opportunity
Commission. We review the District Court’s denial of a
new trial on these grounds for abuse of discretion. An
abuse of discretion occurs when a lower court’s decision
“rests upon a clearly erroneous finding of fact, an
errant conclusion of law or an improper application of
law to fact.”45
First State argues that it was improperly prejudiced
by Robinson’s disclosure that the Commission ruled in
her favor. The District Court agreed that Robinson’s
testimony was inadmissible and promptly struck it
from the record. She instructed the jury that they were
not to consider it in their liability determination. First
State does not explain why this course of conduct was
insufficient, except that it speculates that Robinson’s
statement “likely played a part” in the jury’s verdict.46
For two reasons, we disagree.
First, as the District Court noted, the jury returned
a split verdict. Had the jurors been under the
impression that they should find First State liable
because the Commission found in Robinson’s favor, it
does not follow that this prejudice would manifest itself

45

P.N. v. Clementon Bd. of Educ., 442 F.3d 848, 852 (3d Cir. 2006)
(quoting Hanover Potato Prods., Inc. v. Shalala, 989 F.2d 123, 127
(3d Cir. 1993)).
46

Appellant’s Br. at 22.

App. 20
only in the reasonable accommodation verdict and not
the termination verdict.
Second, we presume that jurors follow the
instructions given to them by the trial court.47 That
presumption is only overcome where there is an
“overwhelming probability” that the jury was unable to
follow the instructions and a likelihood that the
evidence wrongfully admitted was “devastating” to the
other party.48 There is simply no evidence here that the
jury considered Robinson’s testimony after receiving
the curative instruction, nor is there a likelihood that
the consideration of Robinson’s testimony would have
been “devastating” to First State. We therefore
conclude that the District Court did not abuse its
discretion in determining that a new trial was not
warranted on these grounds.
III.

Conclusion

For the foregoing reasons, we affirm the judgment
of the District Court.

47
48

Glenn v. Wynder, 743 F.3d 402, 407 (3d Cir. 2014).

Greer v. Miller, 483 U.S. 756, 766 n.8 (1987) (quoting Richardson
v. Marsh, 481 U.S. 200, 208 (1987); Bruton v. United States, 391
U.S. 123, 136 (1968)).

App. 21

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
Civil Action No. 14-1205-RGA
[Filed August 29, 2017]
_____________________________
TAMRA N. ROBINSON,
)
)
Plaintiff,
)
)
v.
)
)
FIRST STATE COMMUNITY )
ACTION AGENCY,
)
)
Defendant.
)
_____________________________ )
MEMORANDUM
Tamra Robinson, Plaintiff, filed this action against
First State Community Action Agency, Defendant,
alleging violations of the Americans with Disabilities
Act (“ADA”). Plaintiff asserted that: (1) Defendant
regarded her as dyslexic yet failed to engage in an
interactive process to provide her with reasonable
accommodations; and (2) Defendant terminated her
because she was regarded as dyslexic. On December 8,
2016, ‘’judgment [was] entered in favor of [Defendant]
on the ADA ‘termination’ claim; and . . . judgment in

App. 22
the amount of twenty-two thousand five hundred one
dollars ($22,501) [was] entered in favor of [Plaintiff] on
the ADA ‘interactive process’ claim.” (D.I. 73).
Before the Court is Defendant’s motion for a new
trial. (D.I. 82). Defendant moves under two theories:
1) the jury was prejudiced by hearing inadmissible
testimony about the Equal Employment Opportunity
Commission (“EEC”) findings in favor of Plaintiff, and
2) the jury was instructed on the statutory cap on
punitive damages in contravention of federal law. For
the reasons stated below, Defendant’s motion is
DENIED.
Also before the Court is Plaintiff’s motion for
attorneys’ fees, legal expenses, and costs. (D.I. 81). As
the prevailing party, Plaintiff seeks recovery of
attorneys’ fees under 42 U.S.C. § 12205. (Id.). Plaintiff
requests an award of a lodestar in the amount of
$150,412, and for litigation costs and expenses in the
amount of $2,637.28, representing the amounts
incurred through January 3, 2017. (Id. if 15). In
Plaintiff’s reply, Plaintiff requests that $17,876.72 be
added to the lodestar for attorneys’ fees incurred
between January 3, 2017 and January 24, 2017. (D.I.
85 at 8). Thus, Plaintiff’s total request is attorneys’ fees
of $168,288.72 and costs of $2,637.28. (Id.). For the
reasons set forth below, Plaintiff’s motion is
GRANTED in part and DENIED in part.
DEFENDANT’S MOTION FOR NEW TRIAL
I.

STANDARD OF REVIEW

Federal Rule of Civil Procedure 59(a)(1)(A) provides,
in pertinent part: “The court may, on motion, grant a

App. 23
new trial on all or some of the issues—and to any
party— . . . after a jury trial, for any reason for which
a new trial has heretofore been granted in an action at
law in federal court. . . .” Among the most common
reasons for granting a new trial are: (1) the jury’s
verdict is against the clear weight of the evidence, and
a new trial must be granted to prevent a miscarriage of
justice; (2) newly discovered evidence exists that would
likely alter the outcome of the trial; (3) improper
conduct by an attorney or the court unfairly influenced
the verdict; or (4) the jury’s verdict was facially
inconsistent. Arow-Smith v. N.J. Transit Rail
Operations, Inc., 953 F. Supp. 581, 584–85 (D.N.J.
1997).
The decision to grant or deny a new trial is
committed to the sound discretion of the district court.
Allied Chem. Corp. v. Daiflon, Inc., 449 U.S. 33, 36
(1980); Olefins Trading, Inc. v. Han Yang Chem. Corp.,
9 F.3d 282, 289 (3d Cir. 1993). Although the standard
for granting a new trial is less rigorous than the
standard for granting judgment as a matter of law—in
that the Court need not view the evidence in the light
most favorable to the verdict winner—a new trial
should only be granted where “a miscarriage of justice
would result if the verdict were to stand,” the verdict
“cries out to be overturned,” or where the verdict
“shocks [the] conscience.” Williamson v. Consol. Rail
Corp., 926 F.2d 1344, 1352–53 (3d Cir. 1991).
II.

THE EEC TESTIMONY

In Defendant’s motion for a new trial, Defendant
contends that Defendant was prejudiced by Plaintiff’s
testimony that the EEC found in her favor. (D.I. 82).

App. 24
Defendant also argues that Plaintiff’s counsel
intentionally elicited the statement from Plaintiff. (D.I.
86 ¶ 1).
On the first day of the trial, Plaintiff testified that
she filed a complaint with the EEC and that the EEC
ruled in her favor. (D.I. 87 at 3).
Q. After you were terminated, what did you do
next?
A. I filed a Complaint with the EEC, the Equal
Employment Opportunity Commission and filed
for unemployment.
Q. The EEC, to your understanding, what is that
they do?
A. They, I guess, help support those who feel like
they were discriminated against with regard to
a disability.
Q. Why did you go to them?
A. To get backing in regards to the evaluation
and me doing -- show them the evaluation was
sufficient enough for a defense.
Q. What happened next?
A. The EEC ruled in my favor.
(Id.) Defendant objected, and I called counsel to
sidebar. (Id.). Defendant requested a mistrial, which I
denied. (Id. at 4). I told the parties trial was going to
move forward, but I asked Defendant’s counsel if there
was something else she would like me to do. (Id. at 6).
Defense counsel made no suggestions in response. I
struck the question and answer and instructed the
jurors to disregard what they had heard and to not rely
on it for anything. (Id. at 8).

App. 25
Members of the jury, you may recall at the
beginning of the trial I said I might have to
strike some testimony and tell you to disregard
what you heard. The last question and answer,
I am striking that testimony, and you have to
disregard what you heard. You cannot rely on it
for anything. You need to put it out of your
mind.
(Id.). After my instruction, there was no further
discussion of the EEC throughout the trial.
I am not granting Defendant’s request for a new
trial for two reasons. First, the instruction I gave was
sufficient to alleviate any prejudice to Defendant. The
Supreme Court held that a district court should
“presume that a jury will follow an instruction to
disregard inadmissible evidence inadvertently
presented to it, unless there is an ‘overwhelming
probability’ that the jury will be unable to follow the
court’s instructions, and a strong likelihood that the
effect of the evidence would be ‘devastating’ to the
defendant.” Greer v. Miller, 483 U.S. 756, 766 n. 8
(1987). I promptly struck the testimony. My instruction
was not objected to. The testimony itself was not
detailed and not even all that clear what Plaintiff was
saying the EEC ruled on in her favor. The jury’s verdict
was split, showing individual analysis of the two
asserted claims. There is no reason to believe that the
EEC testimony prejudiced the jury, and I do not believe
that it had any effect on the verdict.
Second, I do not find that Plaintiff’s counsel
intentionally elicited the testimony from Plaintiff.
When I asked Plaintiff’s counsel whether he had

App. 26
expected Plaintiff’s testimony, his responses were not
altogether clear. I would summarize my understanding
of his explanation to be that he was not shocked by the
response but he was trying to demonstrate that the
EEC did not work out and that is why Plaintiff had to
file a lawsuit. (D.I. 87 at 5-6). After reviewing
Plaintiff’s counsel’s line of questioning leading to the
EEC findings statement, and his responses to my
inquiry during the sidebar, I find that the EEC
testimony was inadvertently presented to the jury.
Since the jury was not prejudiced, and the EEC
testimony was inadvertent, a new trial is not
warranted.
III.

THE STATUTORY DAMAGES CAP

Defendant argues that I should grant a new trial
because the jury was instructed on the statutory
limitations of $50,000 for punitive damages. That was
an error. Under 42 U.S.C. § 1981a(c)(2), “If a
complaining party seeks compensatory or punitive
damages under this section . . . the court shall not
inform the jury of the limitations.” Defendant, however,
did not make any objection to the instruction on the
record, despite multiple opportunities to do so.
“A party who objects to an instruction or the failure
to give an instruction must do so on the record, stating
distinctly the matter objected to and the grounds for
the objection.” Fed. R. Civ. P. 51(c)(1). Further, a “party
may assign as error: an error in an instruction actually
given, [only] if that party properly objected.” Fed. R.
Civ. P. 51(d)(1).

App. 27
During a conference, I drew the parties’ attentions
to the inclusion of the damages cap in the proposed
verdict form and asked for their input on adding an
instruction about the cap. (D.I. 88 at 3). Neither
Plaintiff nor Defendant objected. (Id.). Instead, both
parties agreed that the instruction should be included.
(Id.). During the charging conference, I again asked the
parties if they objected to any of the proposed jury
instructions, which included an instruction on the
damages cap. (D.I. 89 at 3-21). Defendant raised six
objections, but none pertained to the damages cap.
(Id.). After Defendant’s counsel raised the objections,
she stated, “And I believe that is all I had for the final
version of the jury instructions.” (Id. at 18). I read the
jury instruction to the jury as revised and consented to
by both parties. The jury then retired and went to the
jury room for deliberation.
Defendant did not object to the instruction on the
damages cap nor its inclusion in the verdict form. Thus,
the instruction was not reversible error. See McAdam
v. Dean Witter Reynolds, Inc., 896 F.2d 750 (3d Cir.
1990) (erroneous punitive damages instruction not
plain error); Trent v. Atlantic City Elec. Co., 334 F.2d
847, 859 (3d Cir. 1964) (noting that reviewing errors in
jury instructions which were not objected to at trial
should be exercised “to prevent only what is deemed a
miscarriage of justice”).
Further, any error was harmless. It is certainly
open to debate whether telling the jury that the
maximum amount of punitive damages is $50,000 is
worse for Defendant than leaving the maximum
amount unstated. I do not think it all likely that had I

App. 28
not instructed on the cap, the jury would have awarded
less. Having not raised the objection during trial,
Defendant is barred from raising this objection now.
Since the erroneous testimony was stricken with a
curative instruction, the erroneous jury instruction was
not objected to, and it did not harm Defendant, there is
no reason to grant a new trial. Thus, Defendant’s
motion for new trial is DENIED.
PLAINTIFF’S MOTION FOR
ATTORNEY’S FEES
IV.

STANDARD OF REVIEW

Under the fee-shifting provision of the ADA, a
district court, “in its discretion, may allow the
prevailing party, other than the United States, a
reasonable attorney’s fee, including litigation expenses,
and costs.” 42 U.S.C. § 12205. Since Plaintiff prevailed
on her interactive process claim, she is a prevailing
party entitled to reasonable attorney’s fees. A
reasonable fee “is one that is adequate to attract
competent counsel, but . . . [that does] not produce
windfalls to attorneys.” Blum v. Stenson, 465 U.S. 886,
897 (1984). In calculating the amount of reasonable
attorney’s fees, “[t]he most useful starting point . . . is
the number of hours reasonably expended on the
litigation multiplied by a reasonable hourly rate.”
Hensley v. Eckerhart, 461 U.S. 424, 433 (1983). The
result of this calculation is called the lodestar. Rode v.
Dellarciprete, 892 F.2d 1177, 1183 (3d Cir. 1990).
A court determines a reasonable hourly rate by
reference to the prevailing market rates in the
community and the evidence submitted “supporting the

App. 29
hours worked and rates claimed” to a court. Hensley,
461 U.S. at 433. “The prevailing party bears the burden
of establishing by way of satisfactory evidence” and the
“[attorneys’] own affidavits, that the hourly rates meet
this [community rate].” Washington v. Phila. Cty. Ct. of
C.P., 89 F.3d 1031, 1035 (3d Cir. 1996). With respect to
the number of hours expended, the prevailing party
must establish that those hours were “reasonably
expended.” Hensley, 461 U.S. at 434. “The district
court . . . should exclude from [the lodestar] calculation
hours that were not reasonably expended.” Id. The
court also may exclude from the lodestar calculation
hours “spent litigating on claims on which the party did
not succeed and that were distinct in all respects from
claims on which the party did succeed.” Rode, 892 F.2d
at 1183.
“After determining the [reasonable rate and]
number of hours reasonably expended,” the court
“multiplies that rate by the reasonable hours expended
to obtain the lodestar.” Id. “The lodestar is presumed to
be the reasonable fee.” Id. “The court can adjust the
lodestar downward if the lodestar is not reasonable in
light of the results obtained.” Id. This downward
adjustment “accounts for time spent litigating wholly
or partially unsuccessful claims that are related to the
litigation of successful claims.” Id. “The district court
cannot decrease a fee award based on factors not raised
at all by the adverse party.” Id. With these standards
in mind, I turn to Plaintiff’s request.
V.

LODESTAR

To support the fees request, Plaintiff submitted
three affidavits from local attorneys, practicing in the

App. 30
field of plaintiff-side employment law. (D.I. 81 at Ex. AC). Plaintiff also submitted a twenty-two page itemized
record detailing the date work was performed, the
individual who performed it, a description of the work,
the number of hours spent, and the amount charged.
(Id. at Ex. F). Defendant contests the reasonableness of
the hourly rates, contests the reasonableness of the
time spent on litigation, contests the adequacy of the
documentation, and requests various adjustments to
the lodestar. (D.1. 85). I will address each of
Defendant’s challenges in turn.
A. HOURLY RATES
Defendant argues Plaintiff’s attorneys’ hourly rates
of $410 should be reduced. Defendant points to the
$350 hourly rate awarded in Burris v. Richards Paving.
472 F. Supp. 2d 615 (D. Del. 2007). While that may
have been reasonable for that case, which was a decade
ago, the standard is, “The prevailing party bears the
burden of establishing by way of satisfactory
evidence . . . that the hourly rates meet this
[community rate].” Washington 89 F.3d at 1035.
Plaintiff provided the Court with three affidavits from
local attorneys in support of the reasonableness of the
hourly rates. (D.I. 81 at Ex. A-C). Plaintiff has
established that the requested rates here are
reasonable. Thus, no adjustment will be made to the
hourly rates.
B. TIME SPENT ON LITIGATION
Defendant argues that “the case was overstaffed
with two attorneys expending 352.3 hours,” and that
“the issues in this case were not unusually complex,

App. 31
and the trial was not unduly long or burdensome.” (D.I.
83 ¶¶ 18-19). Defendant requests that I “find that the
time expended throughout the litigation was
[excessive] and not award the requested prevailing rate
for both attorneys.” (Id. ¶ 18). Defendant “assert[ s]
that the [trial preparation and presentation] fees
should be reduced by half.” (Id. ¶ 19).
The use of two attorneys during trial is not
excessive, and no adjustment will be made to the
lodestar on the basis of the purported overstaffing.
Contrast Taylor v. USF-Red Star Express, Inc., 2005
WL 555371 at *3 (E.D. Pa. Mar. 8, 2005) (reducing the
trial billing hours in an ADA case because the plaintiff
used three senior attorneys at trial “when one or two
would have sufficed.”). Trials require a greater
commitment of resources. I also note that most of the
pretrial work was done with one attorney.
C. DOCUMENTATION
Defendant contests certain entries as being
“insufficient to support a fee award.” Although a
motion for attorney’s fees should have “some fairly
definite information as to the hours,” it is only required
to be “specific enough to allow the district court to
determine if the hours claimed are unreasonable for
the work performed.” Rode, 892 F.2d at 1190. Although
some of Plaintiff’s entries are not extremely detailed,
all of Plaintiff’s entries are specific enough for the
Court to understand the reasonableness of the work
performed. Thus, no adjustment will be made to the
entries.

App. 32
Plaintiff’s Exhibit F, the twenty-two page itemized
record detailing the attorneys’ fees, is accepted as
adequate documentation for a fee award.
The starting point—the lodestar—is $168,288.72.
Next, I will address Defendant’s request for
adjustments to the lodestar.
VI.

ADJUSTMENTS TO THE LODESTAR

In Defendant’s answer (D.I. 83), Defendant requests
several adjustments to the lodestar. Defendant argues
I should reduce the lodestar for any post-trial charges,
for secretarial work performed at paralegal hourly
rates, for travel billed at full hourly rates, for issues
caused and prolonged by Plaintiff, for costs incurred by
the change of Plaintiff’s theory of the case, for costs
relating to Dr. Parker’s deposition, and for Plaintiff’s
unsuccessful termination claim. (Id.). I will examine
each argument Defendant raises.
A. POST-TRIAL CHARGES
Defendant “contests [post-trial] charges relating to
the preparation of the Motion for [Attorneys’] Fees.”
(D.I. 83 ¶ 16).
The Third Circuit has held “the time expended by
attorneys in obtaining a reasonable fee is justifiably
included in the attorneys’ fee application, and in the
court’s fee award.” Prandini v. National Tea Co., 585
F.2d 47, 53 (3d Cir. 1978). Plaintiff’s post-trial charges
spent in preparing the motion for attorneys’ fees and
replying to Defendant’s answer are compensable. No
adjustment will be made to the lodestar just because it
includes Plaintiff’s post-trial fees.

App. 33
B. SECRETARIAL WORK
Defendant argues that the “hours of secretarial
work” performed by paralegals required no “specialized
legal training” and requests a reduction in the lodestar
equivalent to the difference had the hours been
performed by a secretary. (D.I. 83 ¶ 17). While
paralegal work can be included in a fees award, “purely
clerical or secretarial tasks should not be billed at a
paralegal rate, regardless of who performs them.”
Missouri, 491 U.S. 274, 288 n. 10 (1989). The tasks
described by Defendant as “hours of secretarial work”
are not “purely clerical or secretarial tasks” because efiling, retrieving pleadings from the docket, and calling
a court reporter or clients are not purely secretarial. No
adjustment will be made to Plaintiff’s hours based on
the theory that a secretary should have performed the
work.
C. TRAVEL
Defendant argues that I should reduce Plaintiff’s
fees for travel time because Plaintiff charged “the full
hourly fee for travel to and from depositions located
within two hours of the court of jurisdiction.” (D.I. 83
¶ 21). “[M]atters of this sort are within the discretion”
of the Court. Perotti v. Seiter, 935 F.2d 761, 764 (6th
Cir. 1991) (upholding the district court’s decision to
award compensation for travel time at the regular
hourly rate). Defendant, not Plaintiff, chose
Georgetown, Delaware as the location of the
depositions. Since Plaintiff’s travel time could have
been avoided by Defendant, no adjustment will be
made to Plaintiff’s travel time billing.

App. 34
D. ISSUES CAUSED AND PROLONGED BY
PLAINTIFF
Defendant requested residential, employment, and
educational records. Plaintiff refused to provide that
information. (D.I. 83 ¶ 22). Defendant filed a motion to
compel (D.I. 25) which Plaintiff answered (D.I. 28), but,
“[o]n the same day, Plaintiff provided the information,
and Defendant subsequently withdrew the motion.”
(Id.). Had Plaintiff turned over the residential,
employment, and educational records instead of billing
for an answer and only then turning over the
information, the costs associated with this motion to
compel could have been avoided. Since the costs could
and should have been avoided by Plaintiff, the lodestar
will be reduced with regards to the costs expended on
the motion to compel. The lodestar is reduced by
$2,270.00 to $166,018.72.
E. CHANGE OF PLAINTIFF’S THEORY OF
THE CASE
Defendant argues for a reduction for the “belated
change in Plaintiff’s theory of the case.” (D.I. 83 ¶ 23).
Defendant argues that early in the case, “Plaintiff
asserted that she was dyslexic,” but “[l]ater in the
litigation, Plaintiff asserted that she was ‘regarded as’
disabled.” (Id.). Defendant filed a motion for summary
judgment in anticipation that Plaintiff’s only theory
was that she was dyslexic but did not anticipate the
“regarded as disabled” theory.
Defendant did not indicate, in any document, when
Plaintiff supposedly changed her theory of the case.
There is no evidence in the record (at least that has

App. 35
been called to my attention), cf. Fed. R. Civ. P. 56(c)(3)
& (e)(2) (putting the burden on the parties to point to
the record that supports a party’s position), that
Plaintiff misled Defendant on her theory of the case.
Plaintiff merely alleged “discrimination against
[her] because of [her] disability in violation with the
[ADA].” (D.I. 2 at 7). The term “disability” as used in 42
U.S.C. § 12101 has three meanings: (1) a physical or
mental impairment that substantially limits one or
more of the major life activities of such individual; (2) a
record of such an impairment; or (3) being regarded as
having such an impairment. Thus, simply because
Plaintiff states she has a disability does not mean that
she is not arguing that she is regarded as having a
disability.
Plaintiff’s pro se complaint alleged facts that
supported a “regarded as” theory. She checked the
disability box, and also wrote that she had “informed
[her supervisor] that I had a disability.” (Id. at 7 & 9).
Defendant might have anticipated all three meanings
of “disability” under § 12101 as theories of the case.
Defendant might have pinned Plaintiff down as to
which theories she was pursuing, and which not. I do
not see that Defendant did so. Therefore, the costs
associated with replying to Defendant’s summary
judgment motion were reasonably expended. No
adjustment will be made to the lodestar for hours and
costs arising from the motion for summary judgment.
F. DR. PARKER’S DEPOSITION
Defendant argues I should downwardly adjust the
lodestar by $2,050 for costs incurred with Dr. Parker’s

App. 36
deposition. (D.I. 83 ¶¶ 23-24). Dr. Parker produced a
report that was a central exhibit at trial for the
“regarded as” theory. (Id. ¶ 23). Defendant noticed and
took the deposition of Dr. Parker (D.I. 38, 46-1);
however, Dr. Parker ultimately did not testify at trial,
and her deposition was not offered in support of the
“regarded as” theory. Since Defendant took Dr.
Parker’s deposition, and Plaintiff necessarily had to
take part in it, no adjustment will be made to the
lodestar for time spent on Dr. Parker’s deposition.
G. PLAINTIFF’S UNSUCCESSFUL CLAIM
Defendant argues that I should award an amount
that is “commensurate with the limited success
attained by [Plaintiff] and the type of claim pursued.”
(D.I. 83 ¶ 26). Plaintiff brought an ADA interactive
process claim and an ADA termination claim against
Defendant, but only prevailed on the ADA interactive
process claim. “If . . . a plaintiff has achieved only
partial or limited success, the product of hours
reasonably expended on the litigation as a whole times
a reasonable hourly rate may be an excessive amount.”
Hensley, 461 U.S. at 436. “There is no precise rule or
formula for making these determinations. The district
court may attempt to identify specific hours that should
be eliminated, or it may simply reduce the award to
account for the limited success. The court necessarily
has discretion in making this equitable judgment.” Id.
at 436-37. In Hensley, the Supreme Court rejected the
use of “a mathematical approach comparing the total
number of issues in the case with those actually
prevailed upon. [Because such] a ratio provides little

App. 37
aid in determining what is a reasonable fee in light of
all the relevant factors.” Id. at 435 n. 11.
Plaintiff had two claims. She only prevailed on one
of them – the ADA interactive process claim. The jury
awarded $1 in nominal damages and $22,500 in
punitive damages. This is a limited success “in
comparison to the scope of the litigation as a whole.” Id.
at 440. Plaintiff got nothing for being terminated. That
was her lead claim. She sought $34,000 for it. (D.I. 60
at 14). She did not prevail on it. Recognizing Plaintiff’s
success at trial was only partial, but also recognizing
the intertwined nature of the successful and
unsuccessful claims, I think it is appropriate to adjust
the lodestar of $166,018.72 by reducing it by 20%. The
awarded adjusted lodestar amount is $132,814.98.
VII.

LITIGATION COSTS

Plaintiff submitted an itemized record detailing the
date the litigation expense was incurred, a description
of each expense, and the amount for each expense. (D.I.
81 Ex. F). Plaintiff requests reimbursement of
litigation costs in the amount of $2,637.28. (Id. ¶ 9).
With regards to litigation costs, Defendant only
contests the costs of Dr. Parker’s deposition transcript,
which is $400.20, for the same reasons that the hours
expended on Dr. Parker’s deposition were unreasonably
expended. (D.I. 83 ¶ 27). Since Plaintiff established
that the hours spent on Dr. Parker’s deposition were
necessary, Dr. Parker’s deposition transcript was also
necessary. No expense regarding Dr. Parker’s
deposition transcript shall be deducted from the

App. 38
litigation costs. The awarded litigation costs are
$2,637.28.
VIII. CONCLUSION
For the aforementioned reasons, Defendant’s motion
for new trial (D.I. 82) is DENIED, and Plaintiff’s
motion for attorneys’ fees (D.I. 81) is GRANTED in
part and DENIED in part. The total amount awarded
is $135,452.26.
A separate order will be entered.
s/____________________________________
United States District Judge 8/29/17

App. 39
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
Civil Action No. 14-1205-RGA
[Filed August 29, 2017]
_____________________________
TAMRA N. ROBINSON,
)
)
Plaintiff,
)
)
v.
)
)
FIRST STATE COMMUNITY )
ACTION AGENCY,
)
)
Defendant.
)
_____________________________ )
ORDER
For the reasons stated in the accompanying
Memorandum, Defendant’s motion for new trial (D.I.
82) is DENIED, and Plaintiff’s motion for attorneys’
fees (D.I. 81) is GRANTED in part and DENIED in
part. The total amount awarded in attorneys’ fees is
$135,452.26.
IT IS SO ORDERED this 29 day of August, 2017.
s/____________________________________
United States District Judge

App. 40

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
Civil Action No. 14-1205-RGA
[Filed December 8, 2016]
_____________________________
TAMRA N. ROBINSON,
)
)
Plaintiff,
)
)
v.
)
)
FIRST STATE COMMUNITY )
ACTION AGENCY,
)
)
Defendant.
)
_____________________________ )
JUDGMENT
This matter having been tried to a jury on
December 5-7, 2016, and the jury having rendered a
verdict in favor Plaintiff on her ADA “interactive
process” claim and in favor of Defendant on the ADA
“termination” claim;
NOW THEREFORE, pursuant to Fed. R. Civ. P.
58(b),
IT IS HEREBY ORDERED, DECREED, AND
ADJUDGED that judgment is entered in favor of

App. 41
Defendant First State Community Action Agency on
the ADA “termination” claim; and
IT IS FURTHER ORDERED, DECREED, AND
ADJUDGED that judgment in the amount of twentytwo thousand five hundred one dollars ($22,501) is
entered in favor of Plaintiff Tamra Robinson on the
ADA “interactive process” claim.
December 8, 2016
Date

s/___________________________
United States District Judge

App. 42

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 17-3141
[Filed April 30, 2019]
_____________________________
TAMRA N. ROBINSON
)
)
v.
)
)
FIRST STATE COMMUNITY )
ACTION AGENCY,
)
)
Appellant
)
)
____________________________ )
(D. Del. No. 1-14-cv-01205)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, COWEN*, and FUENTES,* Circuit Judges
The petition for rehearing filed by appellant, in the
above-entitled case having been submitted to the
*

Pursuant to Third Circuit I.O.P. 9.5.3., Judge Cowen’s and
Fuentes’ votes are limited to panel rehearing.

App. 43
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/ Julio M. Fuentes
Circuit Judge
Dated: April 30, 2019
Lmr/cc: Kevin G. Fasic
Katherine R. Witherspoon
Tasha M. Stevens

